No. 19-912
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ALBERT T. ROBLES, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 10th day of April, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3763 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on April 10, 2020.

April 10, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0912
ROBLES, ALBERT T.
USA

ERIK S. JAFFE
SCHAERR | JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON , DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM

